C'OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs,com
est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-827

UNITED STATES OF AMERICA,
Petitioner,
v.
ZAYN al-ABIDIN MUHAMMAD HUSAYN,
aka ABU ZUBAYDAH, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the AMICUS CURIAE BRIEF
FOR CURRENT AND FORMER U.N. SPECIAL RAPPORTEURS IN SUPPORT OF
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7902 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of August, 2021.
iam duly authorized under the laws of the State of Nebraska to administer oaths.

fe tees, | WOTARY-State of Nebraska ) f & Chk
RENEE J. fe tees, | .

My Comm. Exp. September 5, 2023

 

Notary Public Affiant
41300
